No. 20-422
Iw rHp

$uprem e [.ourt st tbe @nfte[ $tuteg
SaRaH R. LBn,

Petition er,
V

Ottro ElucatroN AssocnrloN,

ET AL.,

Resporudents

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Sixth Circuit

CERTIFICATE OF SERVICE
Noto, of lawful age, upon my oath state that I did, on the 10th day of
December, 2020, serve an electronic copy of the BRIEF IN OPPOSITION in the
above-entitled case to all parties required to be served, who consented to electronic
service only:

I, Lauren

Jonathan F. Mitchell
(Counsel of Record)

Mitchell Law PLLC
111 Congress Ave.

Suite 400
Austin, TX 78701
512.686.3940
j onathan@mitche

11.

law

I certify under penalty

of perjury that the foregoing is true and correct.

Lauren Noto
Executed on the 10th day of December,2020

